HHS/OIG, Audit - "Medicaid Payments For School-Based Health Services Springfield, Massachusetts - July 1999 Through June 2000," (A-01-02-00003)
Department
of Health and Human Services
"Medicaid Payments for School-Based Health Services Springfield, Massachusetts
-July 1999 Through June 2000," (A-01-02-00003)
January 22, 2003
Complete Text of Report is available in PDF format
(1.16 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether costs claimed for school-based
health services by the Springfield Public Schools through the Commonwealth of
Massachusetts were reasonable, allowable and adequately supported in accordance
with the terms of the state Medicaid plan and applicable federal regulations.
The audit period included Medicaid payments made during the period July 1, 1999
through June 30, 2000.
We found Springfield Public Schools inappropriately claimed the cost of school-based
health services when documentation was inadequate, providers did not have required
qualifications, students were absent, and for days when schools were not open
to students.  As a result, we estimate that the Springfield Public Schools
were overpaid at least $574,034.  We made procedural recommendation to
Springfield Public Schools to address these issues.  We also recommended
that Springfield Public Schools refund amounts that were inappropriately paid
by the Medicaid program.  Springfield Public Schools officials disagreed
with the findings and recommendations regarding documentation of services and
provider qualifications.  Springfield Public Schools generally agreed with
the finding and recommendations concerning attendance.